                             NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

DATE:         March 31, 2011

TO:           Martha A. Rubenstein
              Director and Chief Financial Officer
              Office of Budget, Finance, and Award Management (BFA/OAD)

FROM:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

SUBJECT:      Limited Scope Review of Recovery Act Quarterly Reporting Processes at the
              University of Washington, Report Number OIG-11-1-015


        As part of our oversight responsibilities, the Office of Inspector General has conducted
reviews of institutions that have received National Science Foundation (NSF) grants funded by
the American Recovery and Reinvestment Act (ARRA or Recovery Act) to assess the overall
quality of required quarterly reporting. Such quarterly reports contain detailed information on
ARRA projects and activities and are the primary means for keeping the public informed about
the way funds are spent and the outcomes achieved. Our review objectives were to determine
whether the University of Washington (UW or the University) had established an adequate
system of internal controls to provide reasonable assurance that (1) Recovery Act funds were
segregated and separately tracked in its project cost accounting system and (2) quarterly
reporting was timely, accurate, and fully compliant with Section 1512 ARRA reporting
requirements. A detailed description of background, objectives, scope, and methodology can be
found in Appendix A.

Results of Review

        Our review found that UW had properly segregated $42 million in NSF funds awarded
for 80 ARRA grants in its accounting system, submitted Recovery Act quarterly reports timely,
established written ARRA reporting policies and procedures, and developed centralized ARRA
reporting to ensure consistent application of federal and NSF reporting requirements.
Specifically, the University established two dedicated Recovery Act teams with one team
responsible for developing institutional ARRA policies and processes and the other team
responsible for compiling and reporting the required data elements on a quarterly basis.
Additionally, UW developed a web-based system for collection of Recovery Act information
from principal investigators (PI) and ARRA-funded subrecipients.

        However, improvements are needed in the University’s processes for compiling and
reviewing the quarterly Recovery Act information to ensure all data elements reported are
accurate, complete, and fully compliant with Section 1512 requirements. Specifically, our
review disclosed that the University needs to improve its processes and oversight for the
reporting of project status and jobs created/retained for subrecipients and vendors.

        The exceptions identified during our review occurred primarily due to University
official’s interpretation of the Office of Management and Budget (OMB) guidance and
inadequate policies on project status and jobs created/retained. Given the unprecedented
accountability and transparency goals of the Recovery Act, the development of effective
processes and oversight functions are critical factors for ensuring ARRA data quality and proper
management of Recovery Act funds. Without complete and accurate reporting of ARRA project
information and activities, the public and other stakeholders cannot clearly determine if
Recovery Act funds are being spent as intended, thus undermining the integrity of the stimulus
funding and refuting its promise of increased accountability and transparency.

        We provided a draft of this report to UW management for its review and comment. In
addition, at the conclusion of our on-site review, we presented a written outline to the University
on the need to report all subrecipient and vendor jobs created/retained with ARRA funds. One
month later, we also presented to UW our review results on accurately reporting project status so
that the University could take timely actions to implement improvements needed to promote the
highest degree of transparency and accountability over Recovery Act funds. UW concurred with
the recommendations presented in the draft audit report.

        In terms of the finding, UW requested that we rephrase a sentence used in the draft audit
report (page 2, paragraph 2) that stated “The exceptions identified during our review occurred
primarily due to University officials not fully understanding the Office of Management and
Budget (OMB) guidance...” UW requested that this sentence be revised to read “The exceptions
identified during our review occurred primarily due to the University official’s interpretation of
the Office of Management and Budget (OMB) guidance….” We agree with UW that the
rephrasing of this sentence is a better connotation of why the exceptions occurred and have
implemented this change in the final audit report. The University’s written comments in their
entirety are included as Appendix B.

        To help ensure the recommendations are resolved within six months of audit report
issuance pursuant to Office of Management and Budget Circular A-50, please provide the audit
resolution memorandum for our review when NSF has obtained an acceptable Corrective Action




                                                 2
Plan. The Plan should detail specific UW actions taken and/or planned to address each report
recommendation. Milestone dates should be provided for corrective actions not yet completed.

       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please contact Jerel Silver at extension 8461 or Susan Crismon at 303-844-4345.


cc:    Mary Santonastasso, Division Director, DIAS
       Dale Bell, Deputy Division Director, DIAS
       Alex Wynnyk, Branch Chief, CAAR/DIAS
       Maritza Hawrey, DHHS/OIG




                                               3
                              Audit Finding and Recommendations


Improvements Needed in Reporting of ARRA Project Status and Job Estimates Reported

        A review of the December 2009 and March 2010 quarterly ARRA reports disclosed that
six of eight ARRA data elements were correctly reported, one data element was inaccurately
reported, and one data element had a systemic issue that could lead to inaccurate reporting.
Specifically, the data elements reported correctly include: expenditures, quarterly
activities/project description, vendor payments, funds received/invoiced, subaward amounts, and
final report status. However, improvements are needed to ensure ARRA project status and the
number of jobs created/retained are accurately and completely reported in full compliance with
Section 1512 reporting requirements.

Project Status Needs to Be Accurately Reported

        Our review of the December 2009 ARRA report found that UW reported project status
incorrectly for two of its 80 Recovery Act grants. OMB reporting guidance 1 states that project
status should be based on performance progress reports and other relevant non-financial
performance information. Options for selection to report project status include (1) not started,
(2) less than 50 percent complete, (3) completed 50 percent or more, and (4) fully completed.

     PIs have the responsibility for reporting project status via the University's web-based
ARRA reporting system. Our review identified the following two reporting exceptions:

•   Project status on one grant was reported incorrectly due to a change in status that occurred
    between the time the PI initially submitted the data in the UW ARRA web-based system and
    the end of the reporting period. Specifically, the grant’s project status was originally
    reported as “completed 50 percent or more.” However, additional invoices were paid and all
    grant funds were expended, thus University officials stated that the project status should have
    been revised to “fully completed.”

•   Project status for the second grant was incorrectly reported due to PI misinterpretation of the
    OMB reporting guidance. The researcher incorrectly interpreted the project status percentage
    question to apply to the quarterly progress and not the cumulative status of the ARRA
    project. As a result, the project status was inaccurately report as "completed 50 percent or
    more” instead of "less than 50 percent complete” on the quarterly report.

       If the reported project status is not correct, the public and other stakeholders do not have
an accurate overview of the status of Recovery Act-funded projects. These reporting exceptions
occurred because the University's Recovery Act Desk Manual did not include any specific
procedures for compiling, reviewing, and reporting project status. As such, UW's data quality
review process did not include a review of the PI-reported project status to ensure overall

1
      Section 2.3 of OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds
Pursuant to the American Recovery and Reinvestment Act of 2009, issued on June 22, 2009.


                                                   4
accuracy and reasonableness. In order to be fully compliant with OMB reporting requirements, 2
UW needs to ensure its Recovery Act data quality review process is comprehensive and robust to
verify all data elements are accurate, complete, and in compliance with Section 1512 reporting
guidance.

Job Estimates Reported Need to Be Complete and Accurate

       OMB reporting guidance 3 requires prime recipients to generate estimates of jobs impact
by collecting the total number of jobs created or retained on Recovery Act-funded projects,
including activities from subrecipients and vendors, regardless of the dollar amount of the
subaward or vendor payment/contract. However, the University did not establish a process to
ensure job estimates for subrecipients and vendors with contracts or payments less than $25,000
were obtained and reported.

       During our review, we noted that consulting service contracts can often be under the
$25,000 threshold, but do create jobs by the nature of the services being provided. For example,
one grant incurred $7,566 of contractual costs for transcription services, but no jobs were
reported. Typically, people perform transcription services, thus it is reasonable to assume that
some estimate of jobs, albeit a small number, should have been reported.

         Additionally, UW has not established adequate processes and oversight measures to
ensure subrecipient and vendor ARRA job estimates are completely reported. Officials stated
that follow-up is not performed if such entities do not report any jobs in the University's ARRA
web-based reporting system for each reporting quarter. In such cases, the University assumes no
jobs are created/retained and accepts the zero jobs entered in the web-based system. Officials
noted that there is currently no methodology to determine whether zero jobs reported in its
ARRA web-based system are entered by subrecipients and vendors or University staff because
no response was received from the subrecipient and vendor.

       As a result of the weakness reported above, the University could be under-reporting job
estimates, particularly given that UW has almost $42 million of NSF Recovery Act grant
funding. In addition, UW has not effectively achieved the unprecedented accountability and
transparency goals required by the Recovery Act.

       These weaknesses occurred because UW officials did not believe that job estimates were
required for subrecipient and vendor payments/contracts less than $25,000 because such numbers
would be negligible. Thus, the University’s procedures did not require job estimates to be

2
         Section 4.2 and 4.3 of OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of
Funds Pursuant to the American Recovery and Reinvestment Act of 2009, issued June 22, 2009, requires “Prime
recipients, as owners of the data submitted, [to] have the principal responsibility for the quality of the information
submitted.” Specifically, the prime recipient is responsible for performing data quality reviews to identify reporting
errors and making appropriate and timely corrections.
3
       Section 5.7 of Part 2 of OMB Memorandum M-10-08, Updated Guidance on the American Recovery and
Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates, issued on December
18, 2009.


                                                          5
reported for subawards and vendor payments less than $25,000 and UW lacked appropriate
contractual provisions requiring jobs reporting for subawards and vendor payments less than
$25,000. Also, the University's data quality review process did not include procedures for
evaluating reasonableness when subrecipients and vendors did not report any ARRA jobs.
Specifically, some high-level reasonableness check should be performed of the associated
quarterly expenditures, project activities reported and funds received/invoiced. If such an
assessment concludes that the reporting of no ARRA jobs does not appear reasonable, then
follow-up should be initiated with the entity. Such comprehensive and robust data quality
review procedures are essential in order to fulfill the unprecedented Recovery Act accountability
and transparency goals.

Recommendations:

       We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the cognizant audit agency, as needed, to require the University to:

1.1    Revise its Recovery Act Desk Manual to include specific procedures for compiling,
       reviewing, and reporting project status, including additional detailed guidance to PIs on
       how to report this data element on UW’s web-based system.

       UW Response

       UW concurred with the recommendation. Specifically, University officials stated that
       they have updated the Recovery Act Desk Manual to expand procedures for compiling,
       reviewing and reporting project status and added clarification language to the quarterly e-
       mail sent to each ARRA PI and his/her administrative contacts regarding the completion
       status percentage that should be reported for project status.

       OIG Comment

       UW’s response met the intent of the recommendation.

1.2    Establish procedures and appropriate contractual provisions requiring jobs reporting for
       subawards and vendor payments/contracts under $25,000.

       UW Response

       UW concurred with the recommendation. Specifically, University officials stated that the
       contractual provisions currently specify reporting requirements in accordance with
       Section 1512 of the Recovery Act and that all subrecipients are required to provide
       quarterly reports, including information of jobs created/retained. Additionally,
       University officials stated that every purchase made with ARRA funds will be reviewed
       by purchasing personnel and if in the professional judgment of the buyer, there is a
       reasonable potential for job creation/retention, then wherever practicable, the buyer will
       request job reporting information from the vendor.




                                                6
      OIG Comment

      UW’s response met the intent of the recommendation.

1.3   Revise its Recovery Act data quality review processes to require a high-level
      reasonableness check of subrecipients and vendors that do not report any jobs in the web-
      based ARRA reporting system and follow-up with such entities as needed.

      UW Response

      UW concurred with the recommendation. Specifically, University officials stated that the
      web-based system currently allows the University to review all subrecipient data.
      Additionally, University officials stated that purchasing staff will follow-up and
      document all attempts to confirm that any non-response is in fact zero jobs
      created/retained.

      OIG Comment

      UW’s response met the intent of the recommendation.




                                              7
                                                                                      Appendix A

                       Background, Objectives, Scope and Methodology

Background:

Recovery Act Reporting Requirements:

        On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery
Act or ARRA) was enacted to help the nation recover from a severe economic downturn. The
Recovery Act emphasizes unprecedented levels of accountability and transparency over the
$787 billion of public funds committed by Congress, of which $3 billion was received by NSF.
The public expects that the use of ARRA funds will result in a positive impact to our nation’s
economy, including jobs creation and retention. Accordingly, Section 1512 of the Recovery Act
requires recipients to submit reports on ARRA activity no later than 10 days after the end of each
reporting quarter. The first ARRA quarterly report was required to be submitted for the period
ending September 30, 2009.

        ARRA reporting instructions are contained in the Office of Management and Budget
(OMB) guidance. OMB is the primary agency responsible for providing Section 1512 reporting
guidance used by federal agencies, grant recipients, and grant subrecipients. The federal guidance
clearly establishes that recipients have primary responsibility for the quality of data submitted. In
addition, NSF has issued supplemental guidance to its recipients for ARRA reporting.

        OMB published a Recipient Reporting Data Model to define the 99 data elements
required to be reported for each ARRA grant on June 22, 2009. Clarifications to the elements
were published by OMB as a set of Frequently Asked Questions with extensive updates
published to address both recipient and federal agency concerns; many of which were issued
only a short time prior to the end of each ARRA reporting quarter. Some of the key data
elements required to be reported include award number, quarterly award activities; award
expenditures; funds received/invoiced; number of and description of jobs; number and dollar of
sub-awards and vendor payments; project status; and final report status.

NSF Recipient Information

        The University of Washington (UW) is a public research university, founded in 1861 in
Seattle, Washington. UW is the largest university in the Northwestern United States and one of
the oldest universities on the West Coast. The University’s research budget consistently ranks
among the top five in both public and private universities in the United States. UW is also the
largest recipient of federal research funding among public universities and second among all
public and private universities in the country, a position that the university has held each year
since 1974. Accordingly, as of FY 2009, the University had federal grant and contract funds of
$799 million, of which $103 million or about 13 percent was provided by NSF. In addition, as
of March 28, 2010, UW had received 439 total Recovery Act grants and subawards totaling
$193 million. Of these awards, 80 grants totaling $42 million were NSF funded and had total
expenditures of $6.1 million, or 14.5% of the total NSF ARRA funding.



                                                 8
        UW established several key positions, two dedicated teams, and a web-based reporting
system to compile, review, and report quarterly ARRA data. Specifically, the “CORE ARRA
Team” was responsible for developing and documenting the University policies and procedures
for ARRA reporting to ensure full compliance with OMB and various federal sponsoring agency
requirements. This CORE Team would communicate with NSF for clarification on any issues as
required. Secondly, “Team ARRA” was responsible for compiling, reviewing, and reporting all
data elements required under the Recovery Act. The Team was required to perform 23 different
ARRA-related tasks to ensure that UW reporting was fully compliant with all OMB and
sponsoring agency reporting requirements. Additionally, the University developed a web-based
system for the collection of ARRA information from PIs and subrecipients.

Review Objectives:

        Our review objectives were to determine whether UW had established an adequate
system of internal controls to provide reasonable assurance that (1) Recovery Act funds were
segregated and separately tracked in its project cost accounting system and (2) quarterly
reporting was timely, accurate, and fully compliant with Section 1512 reporting requirements.

Scope and Methodology:

        Our review focused on UW’s reporting periods ending December 31, 2009, and
March 31, 2010. We reviewed the University’s processes for compiling and reporting Recovery
Act data elements. Of the 99 data fields required to be reported for each ARRA grant, we
selected key elements that were either deemed critical to ensuring transparency or that were
considered more at risk of being reported inconsistently or inaccurately. Accordingly, our
review focused on the following eight data elements; the estimated number of jobs
created/retained, funds received/invoiced, expenditures, vendor payments, sub-award amounts,
quarterly activities/project description, project status, and final report status. To gain an
understanding of UW’s processes for compiling and reporting of the ARRA data elements, we
conducted a limited review of internal controls related to our audit objectives. Our review
included the following steps:

       •   Reviewed criteria for ARRA reporting, including Section 1512 of the
           Recovery Act and OMB and NSF guidance.

       •   Reviewed UW’s policies, procedures, and processes for collecting, compiling,
           reviewing, and reporting ARRA data.

       •   Interviewed cognizant UW officials, including principal investigators, to gain
           an understanding of their role in the ARRA project management and reporting
           process.

       •   Performed analytical procedures to understand and evaluate UW’s Recovery
           Act reporting processes and related controls. This included the process for


                                               9
           reporting quarterly activities/project description, project status, final report
           status; and ensuring ARRA funds are not awarded to debarred or suspended
           parties.

       •   Performed non-statistical sampling procedures to determine the
           reasonableness of the reported data elements when compared to supporting
           documentation for number of jobs created/retained, funds received/invoiced,
           expenditures, vendor payments, and sub-award amounts.

       •   Discussed fieldwork results with UW management officials.

        The onsite review work at the University was performed from May 4 - 6, 2010,
with additional information obtained through July 2010. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan the review to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for the findings and
conclusions contained in the report.




                                                 10
     Appendix B




11
12
13
